                                                                 Issue Date
                                                                              May 2, 2007
                                                                 Audit Report Number
                                                                              2007-AT-1009




TO:        Larry Knightner, Director, Office of Public Housing, 4EPH


FROM:
           James D. McKay
           Regional Inspector General for Audit, 4AGA


SUBJECT:   The Charleston Housing Authority Needs to Improve Controls over Credit
           Card Use, Travel, and Petty Cash


                                  HIGHLIGHTS

 What We Audited and Why

           We reviewed the Housing Authority of the City of Charleston’s (Authority)
           controls for credit card use, travel, petty cash, and procurement based on an
           anonymous hotline complaint. The objective of the review was to determine
           whether the Authority incurred necessary, reasonable, and allowable costs for
           credit card purchases, travel, and petty cash and whether it complied with
           procurement requirements.


 What We Found

           The Authority’s controls over credit card use, review of certain travel costs,
           settlement of travel advances, and petty cash were inadequate. The credit card
           charges inappropriately included at least $16,526 for its chief executive officer’s
           service in a national housing organization and personal charges. The charges for
           the housing organization included $1,732 that was not reimbursed and $4,137 that


  Table of Contents
           was reimbursed, but incorrectly credited to the Authority’s non-U.S. Department
           of Housing and Urban Development (HUD)-assisted operations rather than the
           HUD-assisted program that paid the costs. The audit also showed inadequate
           review of travel incurred by certain managers, $1,500 in unsettled travel
           advances, and $554 in questioned petty cash disbursements. These conditions
           occurred because the Authority and its board of commissioners did not establish
           and/or follow requirements to ensure proper stewardship over Authority funds.

           We reviewed the Authority’s controls for five contracts but did not detect any
           issues that justified further review.


What We Recommend

           We recommend that the director, Office of Public Housing, require the
           Authority’s board of commissioners to develop and implement controls and/or
           enforce existing controls to restrict credit card use to charges related to official
           Authority business; ensure proper review and approval of travel claims submitted
           by senior managers; ensure proper and timely reconciliation of travel advances;
           and ensure that petty cash disbursements are reasonable, necessary, and properly
           supported. We also recommend that the director require the Authority to
           reimburse the housing organization costs and review all trips associated with the
           housing organization charged to Authority accounts. The Authority should be
           required to reimburse its HUD-assisted programs for costs identified for the
           housing organization that were not reimbursed or reimbursed, but not credited to
           the HUD-assisted program charged for the expense.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response

           We discussed the finding with the Authority and HUD officials during the audit.
           We provided a copy of the draft report to Authority officials on March 15, 2007,
           for their comments and discussed the report with the officials at the exit
           conference on March 29, 2007. The Authority provided its written comments to
           our draft report on April 5, 2007. The Authority generally agreed with the
           finding.

           The complete text of the Authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




 Table of Contents
                                             2
                           TABLE OF CONTENTS

Background and Objectives                                         4

Results of Audit                                                  5
      Finding 1: The Authority’s Controls over Credit Card Use,
                 Travel, and Petty Cash Were Inadequate

Scope and Methodology                                             11


Internal Controls                                                 12

Appendixes
    A. Schedule of Questioned Costs                               13
    B. Auditee Comments and OIG’s Evaluation                      14




                                            3
                      BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Charleston (Authority) was organized in 1935. It is a
public, corporate, and political body organized under the laws of the State of South Carolina by
the City of Charleston. The purpose of the Authority is to provide adequate housing for qualified
low-income individuals in compliance with its annual contributions contracts with the U.S.
Department of Housing and Urban Development (HUD).

The mayor and City Council of Charleston appoint the Authority’s seven-member board of
commissioners (board) to five-year terms. The board elects its own chairperson and designates
its own chief executive officer, who currently is Donald J. Cameron. The chief executive officer
provides oversight of the Authority, and a chief operating officer is responsible for the
Authority’s daily operations under the direction of the chief executive officer.

During the period covered by the review, the chief executive officer served in various officer
positions in a national housing organization. The Authority’s board provided advance approval
for travel performed by the chief executive officer, including travel related to his role in the
national housing organization.

The objective of the review was to determine whether the Authority incurred necessary,
reasonable, and allowable costs for credit card purchases, travel, and petty cash and whether it
complied with procurement requirements.




   Table of Contents

                                                 4
                                 RESULTS OF AUDIT


Finding 1: The Authority’s Controls over Credit Card Use, Travel, and
           Petty Cash Were Inadequate

The Authority needs to improve controls over credit card use, review of certain travel costs,
settlement of travel advances, and petty cash. The credit card charges inappropriately included at
least $16,526 for its chief executive officer’s service in a national housing organization ($9,164)
and personal charges ($7,362). Charges for the housing organization included $1,732 that was
not reimbursed and $4,137 that was reimbursed but incorrectly credited to the Authority’s non-
HUD-assisted operations rather than the HUD-assisted program that paid the costs. The review
further showed inadequate review of travel incurred by the chief executive officer and chief
operation officer, $1,500 in unsettled travel advances, and $554 in questioned petty cash
disbursements. These conditions occurred because the Authority and its board did not establish
and/or follow requirements to ensure proper stewardship over Authority funds.




 Inappropriate Use of Credit
 Cards


               The Authority inappropriately allowed its chief executive officer to use Authority-
               issued credit cards to charge costs related to his service in various officer
               positions in a national housing organization and for personal charges. From
               January 2004 through October 2006, the chief executive officer charged more
               than $73,605 to Authority credit cards of which we examined charges that totaled
               $16,770.

               The Authority’s annual contributions contract does not allow, unless approved by
               HUD, the use of contract funds for charges not related to the development and
               operation of HUD-assisted activities. Office of Management and Budget Circular
               A-87, attachment A, paragraph C(1a), provides that for costs to be allowable, they
               must be necessary and reasonable for proper and efficient performance and
               administration of federal awards. The cost of goods or services for personal use is
               not allowed (Circular A-87, attachment B, section 20). The Authority’s Human
               Resources Guidelines prohibit conditions such as (1) careless, negligent, or
               improper use of Authority property or equipment and (2) misuse of Authority
               funds.

               Housing organization costs - The Authority inappropriately charged HUD-
               assisted programs an undetermined amount for credit card charges by the chief
               executive officer for costs associated with his positions with a national housing


  Table of Contents
                                                5
         organization. Until October 2006, the Authority generally debited the charges to
         expense accounts for its HUD-assisted or non-HUD-assisted activities. The
         amounts should have been recorded to accounts receivable. As a result, the
         Authority did not maintain controls needed to ensure full reimbursement by the
         organization and credits to the appropriate expense accounts. We identified
         instances in which the Authority credited its non-HUD program for
         reimbursements of costs charged to HUD-assisted accounts. Authority officials
         stated that after October 2006, they began recording charges for the housing
         organization to accounts receivable. The account had no balance at the time of
         our review.

         Authority records did not show and we did not determine the amount of housing
         organization costs charged to the Authority’s HUD-assisted program. We
         reviewed board minutes from January 1, 2004, through October 31, 2006 and
         identified 31 trips approved for chief executive officer travel for the professional
         organization. We could not readily determine whether the trips were related to his
         position with the organization. The chief executive officer reviewed the list and
         based on his comments, only 15 of the trips were related in whole or in part to his
         position with the organization. The trips included destinations such as Jerusalem,
         Ireland, Scotland, and Yellowstone, Montana.

         We examined $9,164 charged for four of the trips the chief executive officer
         claimed were related in whole or in part to his position with the housing
         organization. The results showed that $1,732 was not reimbursed and $4,137 was
         reimbursed, but the Authority credited the payments to its non-HUD program
         accounts rather than the HUD-assisted accounts charged with the expense. Thus,
         the Authority’s HUD-assisted accounts contained $5,869 ($1,732 + $4,137) in
         cost for the housing organization that either was not repaid or the repayments
         were not credited to the proper accounts.




Table of Contents
                                          6
                                                       Chief
                       Charged to   Charged to       executive                        Repayment
                         HUD-       non-HUD-         Officer’s   Total     Amounts    applied to
                        assisted     assisted        personal     trip        not     the wrong
         Destination   operations   operations        charges    cost       repaid     account

        Scotland          $2,722         $840                    $ 3,562      $ 605     $2,127
        Ireland            1,183          891                      2,074         97      1,183
        Jerusalem            880                                     880         53        827
        Yellowstone        2,041                         $607      2,648      977
        Total             $6,826       $1,731            $607    $9,164      $1,732     $4,137

            The above conditions indicate a need to determine all trips taken by the chief
            executive officer related to his position with the housing organization. The
            Authority should ensure that any housing organization trip costs charged to HUD-
            assisted accounts were repaid and properly credited back to the program.

            Personal Charges - The chief executive officer consistently charged personal costs
            to the Authority’s credit card. From January 2004 through December 2006, the
            files showed 88 personal charges that totaled $7,362. The charges included items
            such as airline tickets, rental car fees, Internet fees, and fees associated with a
            global positioning system for the chief executive officer’s personal vehicle. We
            did not review all of the charges to determine whether they were reimbursed but
            during the review, we identified an $18 personal charge that was not reimbursed.

            Audit tests showed that the accounting staff did not include the personal charges
            in the amounts recorded in the Authority’s general ledger. Instead, they only
            recorded the statement amount net of the personal charges due from the chief
            executive officer.

Inadequate Controls over
Administrators Travel Claims


            The Authority did not provide for the review and approval of travel expenses
            incurred by the chief executive officer and the chief operating officer. This
            review was needed, according to Office of Management and Budget Circular A-
            87, to ensure that travel costs were reasonable and allowable. The chief executive
            officer stated that the board chairman stopped reviewing his travel vouchers for
            approval in the mid-1980s and no one has reviewed the vouchers since that time.
            The chief executive officer stated that, effective August 15, 2006, he no longer
            reviews travel performed by the chief operating officer because the board
            approves the travel in advance of the trip.

            The chief executive officer stated that the review of his and the chief operating
            officer’s travel vouchers was an accounting function and the accountants were

 Table of Contents                               7
             responsible for the reconciliation of the travel claims. This reconciliation did not
             always take place. For example, we identified one instance in which the lack of
             such a review resulted in the chief executive officer’s not reimbursing $131 due
             from a cash advance. This condition went undetected for three months until we
             questioned the amount, which the chief executive officer then paid.

 Travel Advances Not
 Reconciled in a Timely Manner


             We identified several instances in which travel advances were not reconciled in a
             timely manner and the travelers were allowed to receive additional advances for
             other travel. The Authority’s travel policy states that all travel advances must be
             reconciled within ten days of the end of the travel. The policy provides that
             travelers who fail to reconcile travel within this timeframe will be denied future
             cash advances. The Authority did not properly monitor or enforce this policy.
             For instance, in January 2007, the general ledger showed $1,500 for advances for
             the board chairman and a housing manager for trips that occurred two to 15
             months earlier without reconciliation. Contrary to its policy, the Authority
             allowed the individuals to receive advances for additional travel.


Petty Cash Disbursements Not
Properly Supported

             The Authority needs to improve controls to ensure that petty cash is used only for
             costs that are reasonable, necessary, and properly supported. We reviewed $2,954
             paid from petty cash. The amount included $656 for gasoline purchases that were
             not supported as necessary. The costs included $554 charged to the Authority’s
             HUD-assisted program and $102 charged to Section 8 (including $40 not
             supported by purchase receipts). The receipts did not identify who purchased the
             gasoline.

             The purchases occurred when the Authority’s prior chief financial officer and a
             prior accountant, who also served as the interim chief financial officer, controlled
             petty cash. Charges by both individuals were included in a forensic audit
             requested by the board to look into questionable expenditures. The $656 was in
             addition to the transactions questioned by the forensic audit. The purchases
             occurred when the prior chief financial officer, prior accountant, and many other
             Authority staff had access to and used Authority-issued credit cards. We could
             not determine whether the gasoline purchases represented reasonable and
             necessary costs.

             Office of Management and Budget Circular A-87 provides that costs shall be
             considered reasonable and allowable only to the extent that the costs do not
             exceed charges normally allowed for regular operations.

  Table of Contents
                                               8
          The above conditions occurred because the Authority’s board and senior
          managers did not establish or follow requirements to ensure proper stewardship
          over Authority funds.


Recommendations

          We recommend that the director, Office of Public Housing require the Authority
          to

          1A.     Issue guidance and/or enforce existing guidance and requirements to
                  prohibit future use of Authority credit cards for charges not related to
                  official Authority business, regardless of whether the charges are
                  reimbursed.

          1B.     Reimburse the low-income public housing reserve account $5,869
                  for travel costs associated with the housing organization that were either
                  not reimbursed or reimbursed but not credited back to the HUD-assisted
                  program that paid the expense. The reimbursements should be made from
                  non-HUD-assisted sources.

          1C.     Review all cost associated with the 31 trips approved by the board for
                  chief executive officer travel for the professional organization and
                  reimburse the Authority’s low-income public housing reserve account for
                  costs not related to Authority operation that were either not reimbursed or
                  reimbursed but not credited back to the proper accounts. If during the
                  review other trips are identified, the trips should also be assessed and
                  appropriate reimbursement made if warranted by the assessment. The
                  reimbursements should be made from non-HUD-assisted sources.

          1D.     Review and ensure that all personal credit card charges were reimbursed,
                  including the $18 identified by the audit. The reimbursements should be
                  made from non-HUD-assisted sources.

          1E.     Establish administrative controls to ensure proper review, approval, and
                  reconciliation of all travel by the chief executive officer and the chief
                  operating officer by an appropriate management official or board member.

          1F.     Reconcile and require proper settlement of the $1,500 in travel advances
                  that were outstanding longer than permitted by the Authority’s policy.

          1G.     Monitor and enforce existing procedures that require prompt reconciliation
                  and settlement of travel advances.



  Table of Contents
                                            9
         1H.   Document the reasonableness of the $554 in petty cash disbursements or
               reimburse the amounts from non-HUD-assisted sources.

         1I.   Develop requirements or enforce existing requirements to ensure that petty
               cash disbursements are reasonable, necessary, and properly supported.




Table of Contents

                                       10
                         SCOPE AND METHODOLOGY

To achieve our review objective, we reviewed:

   •   Applicable laws, regulations, HUD program requirements, the Authority’s annual
       contributions contract with HUD, and the Authority’s administrative policies and
       procedures;

   •   The Authority’s financial records including general ledgers, journal vouchers, cash
       receipt records, and bank deposits. We also examined support for disbursements that
       included purchase order logs, contract files, credit card statements, travel expense reports,
       check vouchers, receipts, and invoices;

   •   The Authority’s fiscal years 2004 and 2005 independent public accountant reports, HUD
       program monitoring reviews, and a forensic audit obtained at the request of the
       Authority’s board.

We interviewed HUD Office of Public Housing program officials and reviewed HUD program
files in Columbia, South Carolina. We interviewed Authority’s management and staff, and
reviewed Authority records in Charleston, South Carolina. Our review generally covered the
period January 1, 2004, through October 31, 2006. We expanded the review period as needed to
accomplish our objective. We reviewed $18,426 of the $314,533 charged to Authority credit
cards and $15,171 charged for petty cash and other travel. The review included four of 31 trips
that the board minutes show approved for trips taken by the chief executive officer related to a
national housing organization. We also reviewed five contracts for compliance with
procurement requirements. We selected transactions based on concerns raised by the complaint,
dollar amounts, and other factors we considered relevant. We conducted the audit from
November 2006 through January 2007 at the Authority’s office in Charleston, South Carolina,
and from our office in Jacksonville, Florida.

We performed the review in accordance with generally accepted government auditing standards.




  Table of Contents

                                                11
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

           •   Effectiveness and efficiency of operations,
           •   Reliability of financial reporting, and
           •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.




Relevant Internal Controls

               We determined the following internal controls were relevant to our audit
               objectives:

               •   Policies and procedures that management has implemented to reasonably
                   assure that resource uses are consistent with laws and regulations.

               •   Policies and procedures that management has implemented to reasonably
                   assure that resources are safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if management controls do not provide reasonable
               assurance that the process for planning, organizing, directing, and controlling
               program operations will meet the organization’s objectives.

  Significant Weaknesses


               Based on our review, the Authority did not have adequate controls over credit
               card use, review of senior managers’ travel, settlement of travel advances, and
               petty cash. Details associated with these issues are discussed in finding 1.




    Table of Contents
                                               12
                                     APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS

               Recommendation          Ineligible costs1/      Unsupported costs 2/
                      1B                      $5,869

                      1D                            18

                       1F                                              1,500

                      1H                       ____                      554

                     Total                    $5,887                 $2,054


1/     Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
       that the auditor believes are not allowable by law; contract; or federal, state, or local
       polices or regulations.

2/     Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
       or activity when we cannot determine eligibility at the time of audit. Unsupported costs
       require a decision by HUD program officials. This decision, in addition to obtaining
       supporting documentation, might involve a legal interpretation or clarification of
       departmental policies and procedures.




     Table of Contents

                                               13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




   Table of Contents
                         14
                    OIG Evaluation of Auditee Comments




Table of Contents
                                   15
                      OIG Evaluation of Auditee Comments
Comment 1




  Table of Contents
                                     16
                                    OIG Evaluation

Comment 1   The Authority expressed no disagreement with the finding and recommendations.
            The attachment to the Authority’s written response shows it has taken actions to
            address several of the recommendations.




  Table of Contents

                                           17
